No.

IN THE SUPREME COURT OF THE UNITED STATES

JEREMIAH P. RICE
Petitioner,
Vv.
STATE OF ILLINOIS
Respondent.
CERTIFICATE OF SERVICE

I hereby certify that on this 21st day of October, 2020, I
electronically filed and mailed a copy of the foregoing with the
Clerk of the Court for the United States Supreme Court. I further
certify that I served one copy of the foregoing via electronic mail
and U.S. mail with postage prepaid upon:

Lawrence M. Bauer
Deputy Director State’s Attorney’s Appellate Prosecutor
2032 Larkin Avenue

Elgin, IL 60123
2nddistrict.eserve@ilsaap.org

 

les G. Schierer
